 REVIEW OF EXPENSES ASSOCIATED WITH
FURNISHING, REDECORATING, PURCHASING
 FURNITURE OR MAKING IMPROVEMENTS
        TO COMMISSION OFFICES

        OIG/99A-08 July 12, 1999
                                        July 12, 1999




MEMORANDUM TO:               William D. Travers
                             Executive Director for Operations


FROM:                        Thomas J. Barchi
                             Assistant Inspector General for Audits


SUBJECT:                     REVIEW OF EXPENSES ASSOCIATED WITH FURNISHING,
                             REDECORATING, PURCHASING FURNITURE OR MAKING
                             IMPROVEMENTS TO COMMISSION OFFICES


Attached is the Office of the Inspector General’s audit report titled ”Review of Expenses
Associated With Furnishing, Redecorating, Purchasing Furniture or Making Improvements to
Commission Offices.” This report reflects the results of our review as stated above.

On June 2, 1999, we provided a draft of this report to the Deputy Executive Director for
Management Services. On July 6, 1999, the Deputy Executive Director for Management Services
responded to our draft report and agreed with the report’s recommendations. Corrective actions
on all of our recommendations are either underway or completed.

Please contact me on 415-5915 if we can assist you further in this matter.


Attachment: As stated
                           Review of Expenses Associated With Improvements to Commission Offices



REPORT SYNOPSIS

        During December 1998, the Office of the Inspector General received an
        anonymous concern suggesting that substantial funds may have been expended
        for furnishing, redecorating, purchasing furniture or making improvements to
        Commission offices within the U.S. Nuclear Regulatory Commission (NRC).
        Further, the concern alleged that these funds may have been in excess of the
        $5,000 statutory limitation established by the Congress for Presidential appointees.
        As a result, we initiated a review to determine whether NRC complies with
        applicable laws and regulations regarding expenses associated with furnishing,
        redecorating, purchasing furniture or making improvements to Commission offices
        and to determine whether these expenses are recorded and tracked during the
        complete term of office for each Presidential appointee.

        Based on our evaluation, we found that: (1) NRC is in compliance with laws and
        regulations regarding limits on expenditures of monies for Presidential appointees’
        offices, (2) these expenses are recorded and tracked during the complete term of
        each Presidential appointee, and (3) NRC needs to improve its accountability and
        controls for funds spent on Presidential appointees’ offices.

        Our report provides three recommendations to improve NRC’s management
        controls and provide further accountability for documenting and justifying the basis
        for important decisions in this area.




        OIG/99A-08                                                                        Page i
                                   Review of Expenses Associated With Improvements to Commission Offices



TABLE OF CONTENTS


        REPORT SYNOPSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                    BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        RESULTS OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                    NRC IS IN COMPLIANCE W ITH LAWS AND REGULATIONS REGARDING LIMITS ON
                      EXPENDITURES FOR OFFICES OF PRESIDENTIAL APPOINTEES . . . . . . . . 3

                    NRC NEEDS TO IMPROVE ITS TRACKING INFORMATION AND ACCOUNTABILITY
                      OF EXPENDITURES FOR OFFICES OF PRESIDENTIAL APPOINTEES . . . . . 4


        CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

        RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

        OIG COMMENTS ON AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . 6


        APPENDICES

               I          OBJECTIVES, SCOPE, AND METHODOLOGY

               II         OVERVIEW OF NRC STANDARDS, PROCEDURES, AND
                             RESPONSIBILITIES

              III         AGENCY RESPONSE TO DRAFT REPORT

             IV           NRC ORGANIZATIONAL CHART

              V           MAJOR CONTRIBUTORS TO THIS REPORT

             VI           GLOSSARY: OFFICE OF THE INSPECTOR GENERAL
                          PRODUCTS
                            Review of Expenses Associated With Improvements to Commission Offices




INTRODUCTION

         During December 1998, the Office of the Inspector General (OIG) received an
         anonymous concern suggesting that substantial funds may have been expended
         for furnishing, redecorating, purchasing furniture or making improvements to
         Commission offices within the U.S. Nuclear Regulatory Commission (NRC).
         Further, the concern alleged that these funds may have been in excess of the
         $5,000 statutory limitation for such expenditures by Presidential appointees.

         During a similar OIG review in 1991(1) we observed that NRC had procedures for
         monitoring these funds. In the 1991 review, we reinforced the importance of
         maintaining these controls throughout the complete term of office for each
         Presidential appointee.

         Our overall objectives for this current review were to determine whether NRC
         complies with applicable laws and regulations and to determine whether associated
         expenses are recorded and tracked during the complete term of office for each
         NRC Commission member. Appendix I contains additional information on our
         objectives, scope, and methodology.

    BACKGROUND

         During the past ten years, guidelines limiting the obligation and expenditure of
         monies used for offices of Presidential appointees have undergone significant
         changes. The General Services Administration (GSA) Bulletin Federal Property
         Management Regulation (FPMR) 215, dated August 19, 1988, prohibited agencies
         and departments from spending or obligating more than $5,000 for renovating,
         remodeling, furnishing or redecorating offices for Presidential appointees. In
         addition, any expenditures over this amount needed express approval by the
         Committees on Appropriations of the House and Senate.

         Section 614 of Public Law 101-136, dated November 3, 1989, provided that
         agencies and departments may not obligate or expend in excess of $5,000 to
         furnish or redecorate, or to purchase furniture or make improvements for
         Presidential appointees’ offices. This limitation applies during the appointee’s
         complete term of office. This law changed the previous guidance in two ways.
         First, it made the $5,000 limitation applicable for the duration of each Presidential
         appointee’s term and second, it deleted the words “renovation” and “remodeling”


    1
         Review of Expenses Associated with Furnishing, Decorating, and Renovating Chairman
         Selin’s Office, September 18, 1991, OIG 91A-11.

         OIG/99A-08                                                                        Page 1
Review of Expenses Associated With Improvements to Commission Offices



                from the $5,000 spending ceiling. This new language is embodied in GSA Bulletin
                FPMR D-222, dated February 16, 1990, titled Public Buildings and Space.

                Finally, during 1992, Section 618 of Public Law 102-393 amended the previous
                language by defining “office” as the “entire suite of offices assigned to the
                individual, as well as any other space used primarily by the individual or the use of
                which is directly controlled by the individual.”

                In order to incorporate relevant laws and regulations of control agencies such as
                GSA and to provide procedures and accountability for property, furniture, and
                supplies, NRC has developed internal guidance. This guidance includes
                Management Directives, internal procedures, and in addition, NRC has requested
                and received assistance from GSA in developing general criteria to determine
                which expenses are applicable to the $5,000 statutory limitation.

                Current NRC guidance provides that the $5,000 spending ceiling generally applies
                to items of a decorative nature or purchases that are motivated by personal
                preference such as (1) change in furniture fabric, (2) removal or replacement of
                existing serviceable built-in cabinets and book shelves, and (3) replacement of
                existing serviceable furniture based on personal preference for style, color, or
                pattern, if existing furniture is still in good condition. Alternatively, the $5,000
                ceiling generally does not apply to items or improvements having lasting, functional
                benefits to future holders of the office such as (1) security or lighting upgrades, (2)
                legitimate entitlements for executive schedule office holders, (3) maintenance,
                routine repairs, and cyclical replacement due to normal wear and tear, and (4)
                substitution of existing NRC warehouse stock for existing suite furnishings.

RESULTS OF AUDIT

                Our review determined that NRC has complied with applicable laws and
                regulations regarding funds expended on NRC Commission offices. However, we
                found that improved documentation and tracking for such funds is needed.




                OIG/99A-08                                                                       Page 2
                          Review of Expenses Associated With Improvements to Commission Offices



NRC IS IN COMPLIANCE WITH LAWS AND REGULATIONS REGARDING LIMITS ON EXPENDITURES
FOR OFFICES OF PRESIDENTIAL APPOINTEES


      Our review of NRC expenditures occurring since May 2, 1995,(2) associated with
      furnishing, redecorating, purchasing furniture or making improvements to
      Commission offices indicated that the agency is in compliance with laws and
      regulations regarding limits on expenditures for Presidential appointees.(3) We also
      found that these expenses are recorded and tracked during the complete term of
      office for each NRC Commission member. We found that no Commission
      members for the period under review exceeded the $5,000 statutory limitation for
      these types of sensitive payments.

      Commission expenditure files represent a management tool to maintain source
      documentation and reflect decisions made for sensitive payments for Commission
      members. OIG contacted an Office of Administration (ADM) representative and
      reviewed the documentation within the Commission expenditure files (the “files”).
      Based on our analysis of the documentation in the files, we found:

      (1)    Total Commission office expenditures (rounded) for the period under review
             were approximately $85,100. Of that total, about $13,700 or 16 percent,
             was subject to the $5,000 statutory limitation.

      (2)    Except for minor rounding differences, costs subject to the $5,000 statutory
             limitation on ADM’s existing summary sheets within the files are accurate.
             No Commission member in office since May 2, 1995, exceeded this
             limitation for office expenses associated with furnishing, redecorating,
             purchasing furniture, or making improvements.

      (3)    Office expenditures have been tracked during the complete term of office for
             each NRC Commission member.

      (4)    Files were readily available for OIG’s examination.




2
      Date oath administered to Shirley A. Jackson, Commissioner. On July 1, 1995,
      Shirley A. Jackson assumed the Chairmanship. All other current NRC Commissioners
      assumed office after May 2, 1995.
3
      Refer to Appendix II for an overview of NRC standards, procedures, and responsibilities
      in this area.

      OIG/99A-08                                                                         Page 3
Review of Expenses Associated With Improvements to Commission Offices



                (5)    Access to and accountability for files was limited to authorized NRC
                       employees only.

                (6)    Appropriate NRC personnel, acting within the scope of their authority,
                       reviewed these files.

                (7)    NRC properly separated key duties and responsibilities for authorizing,
                       processing, recording, and reviewing these files.

        NRC NEEDS TO IMPROVE ITS TRACKING INFORMATION AND ACCOUNTABILITY OF EXPENDITURES
        FOR OFFICES OF PRESIDENTIAL APPOINTEES


                ADM needs to improve its tracking of expenses and accountability for important
                decisions related to funds spent for Commission offices. During our review we
                found that improvements were needed for controls, procedures, and justification
                basis for important decisions related to this process. Also, NRC Management
                Directive (MD) 13.1, titled Property Management, needs updating to reflect current
                organizational responsibilities and authority for administering these expenditures.
                In the absence of improvements, sensitive payments subject to the $5,000
                statutory limitation might not be adequately tracked and monitored and this could
                lead to undocumented decisions affecting the statutory limitation.

                NRC personnel acting within the scope of their authority should have adequate
                procedures and guidance associated with the obligation and expenditure of monies
                for Commission offices. As stated in this review, we performed an analysis of the
                source documentation found in NRC Commission members’ files to determine
                whether NRC was in compliance with applicable laws and regulations. When we
                examined the source documentation within the files, we found that: (1) two of the
                files did not contain expenditure summary sheets, (2) two summary sheets did not
                contain the name of the Commission member, (3) none of the files contained a
                correct starting point date indicating when an individual officially became a member
                of the Commission, and (4) none of the files contained total expenditures to date,
                broken down by expenditures subject to or not subject to the $5,000 developed
                from the source documentation.

                We believe that an important management control would be some notation on each
                invoice that clearly indicates whether the expense counts against the $5,000
                statutory limitation, the date of the decision, and who was responsible for the
                decision. In almost all cases we reviewed, the invoices in the files did not contain
                either a signature (or the initials) of the ADM individual responsible for documenting
                the Commission expense, or a date to indicate when the determination was made.

                To analyze documentation in Commission expenditure files, we developed an

                OIG/99A-08                                                                      Page 4
                   Review of Expenses Associated With Improvements to Commission Offices



expenditures to date listing of expenses for each Commission member broken
down into two categories - total dollar expenditures subject or not subject to the
$5,000 statutory limitation. We shared this listing information with ADM as a
possible sample format to use in improving their monitoring and tracking process.
We recognize that, during July 1998, ADM set up a tracking system to monitor the
status of purchases, deliveries, and services for the Commission; however, this
system was not set up to track costs.

We also found that agency procedures for the Commission office expenditure
process need improvement. We noted that ADM does not have formal written
procedures that would define the entire approval and recordkeeping process. In
a recent discussion with an ADM official, we were encouraged that they are now
in the process of developing such procedures. Also, MD 13.1 needs to be updated
to reflect current organizational responsibilities and authority regarding expenditure
of monies for offices of Presidential appointees. It is our understanding that ADM
also plans to revise MD 13.1 accordingly.

Expenditures Needing Additional Justification

During our review we requested additional information for two items. Both items
represented purchases that were not classified as personal preference items and,
therefore, did not count against the $5,000 statutory limitation. We sought
additional information because file documents did not contain sufficient information
to fully justify the final decisions. The invoices in question were for $289.44 and
$4,083.00 respectively. As a result, we met with an ADM official to obtain further
explanation.

ADM officials provided supplementary explanation to justify their rationale for
classifying the $289.44 expense as a non-personal preference item. We did not
further pursue this expense. ADM officials also told us that part of the $4,083.00
expense was actually attributable to the One White Flint North Restack project and,
therefore, those funds (in accordance with GSA guidance) were not charged
against the $5,000 statutory limitation. They stated that the balance of these funds
were actually attributable to improvements in the “building structure” and not a
Commission office. As a result, ADM officials also did not count the balance of
funds associated with the $4,083.00 invoice against the $5,000 limitation.
Because building structure improvements represent lasting, functional benefits to
future office holders and are not considered a personal preference item, we closed
this issue. However, these two items indicated the need for improved management
controls to justify final decisions.




OIG/99A-08                                                                        Page 5
Review of Expenses Associated With Improvements to Commission Offices



CONCLUSIONS

                Our evaluation of NRC expenditures occurring since May 2, 1995, associated with
                furnishing, redecorating, purchasing furniture or making improvements to
                Commission offices indicated that the agency is in compliance with laws and
                regulations regarding limits on expenditures for Presidential appointees. As a
                result, no Commission members for the period under review exceeded the $5,000
                statutory limitation for these sensitive payments.

                Our evaluation disclosed, however, that ADM needs to improve the tracking of
                expenses, accountability, and the justification for its basis of important decisions
                for Commission office expenses. We believe that the sensitive nature of these
                expenses requires additional management controls so that decisions can withstand
                public scrutiny. Without such controls, we are also concerned that expenses may
                not be properly justified and could exceed the statutory limitation.


RECOMMENDATIONS

                To improve the management controls for Commission office expenditures, we
                recommend that the Director, ADM:

                (1)    Revise and update MD 13.1, titled Property Management, to reflect current
                       organizational responsibilities and authority regarding expenditure of monies
                       for offices of Presidential appointees.

                (2)    Develop formal written procedures that clearly define the entire approval,
                       justification, and recordkeeping process.

                (3)    Develop a new tracking system to summarize source documentation within
                       the Commission expenditure files to facilitate monitoring total expenses and
                       amounts subject to the $5,000 statutory limitation.


OIG COMMENTS ON AGENCY RESPONSE

                On July 6, 1999, the Deputy Executive Director for Management Services
                responded to our draft report (see Appendix III), and agreed with our three
                recommendations, and presented the corrective actions they plan to implement to
                address our concerns. We believe these actions will address the intent of our
                recommendations.

                OIG/99A-08                                                                    Page 6
                                                                                      Appendix I
                           Review of Expenses Associated With Improvements to Commission Offices



OBJECTIVES, SCOPE, AND METHODOLOGY

        Our overall objectives were to determine whether the U.S. Nuclear Regulatory
        Commission (NRC) complies with applicable laws and regulations regarding
        expenses associated with furnishing, redecorating, purchasing furniture or making
        improvements to Commission offices and to determine whether associated
        expenses are recorded and tracked during the complete term of office of each
        Presidential appointee.

        To address our objectives, we reviewed NRC files and documentation maintained
        by the Office of Administration (ADM). Specifically, we reviewed ADM’s
        Commission expenditure file documentation for expenditures occurring from May
        2, 1995, through January 12, 1999. This source documentation, such as invoices,
        forms the basis for important decisions for the expenditure of monies for offices of
        Presidential appointees at NRC. Our efforts included an examination of all the
        documentation in the files for this period. We also interviewed the appropriate
        ADM officials responsible for this process.

        We reviewed the relevant management controls for obligation and expenditure of
        monies for offices of Presidential appointees at NRC and performed our audit work
        from December 1998 through February 1999 in accordance with generally
        accepted Government auditing standards.




        OIG/99A-08                                                                    Page 1 of 1
                                                                                       Appendix II
                             Review of Expenses Associated With Improvements to Commission Offices



OVERVIEW OF NRC STANDARDS, PROCEDURES, AND RESPONSIBILITIES


         U.S. Nuclear Regulatory Commission (NRC) Management Directive (MD) 13.1,
         dated July 31, 1996, titled Property Management, establishes and applies
         standards and procedures for the use of property such as Federal Property
         Management Regulations, and incorporates relevant regulations of control
         agencies such as the General Services Administration. The Director, Office of
         Administration (ADM), provides overall management of the NRC property and
         supply programs. Office Directors and Regional Administrators ensure that
         (1) organizational requirements reflected in requisitions for supplies, furniture,
         equipment, and related services are fully justified and support existing NRC
         mission-related activities, and (2) requisitions are certified for furniture, equipment,
         related services, and supplies not listed in the NRC stock list.(1)

         The Director, Division of Contracts and Property Management, ADM, provides
         controls and accountability for NRC property, furniture, and supplies, and furnishes
         NRC property and supply, and warehouse services. MD 13.1 also provides that
         central accountability for NRC property is maintained by the Division of Facilities
         and Security (DFS), ADM. Specifically, the Chief, DFS, serves as the Property
         Management Officer and keeps records to ensure the $5,000 limitation established
         by Public Law 101-136 to furnish or redecorate an NRC political appointee’s office
         is not exceeded.(2)




    1
         Stocked furniture items are held at the NRC warehouse, a central repository for bulk-
         supply stock and furniture, and are issued after receipt of an NRC Form 30, “Request for
         Administrative Services.”
    2
         Section 614 of Public Law 101-136, (1989) and Section 618 of Public Law 102-393
         (1992) have changed this provision to include the purchase of furniture or making
         improvements to Presidential appointees’ entire suite of offices.

         OIG/99A-08                                                                     Page 1 of 1
                                                                       Appendix III
             Review of Expenses Associated With Improvements to Commission Offices




OIG/99A-08                                                              Page 1 of 7
Appendix III
Review of Expenses Associated With Improvements to Commission Offices




                OIG/99A-08                                              Page 2 of 7
                                                                       Appendix III
             Review of Expenses Associated With Improvements to Commission Offices




OIG/99A-08                                                              Page 3 of 7
Appendix III
Review of Expenses Associated With Improvements to Commission Offices




                OIG/99A-08                                              Page 4 of 7
                                                                       Appendix III
             Review of Expenses Associated With Improvements to Commission Offices




OIG/99A-08                                                              Page 5 of 7
Appendix III
Review of Expenses Associated With Improvements to Commission Offices




                OIG/99A-08                                              Page 6 of 7
                                                                       Appendix III
             Review of Expenses Associated With Improvements to Commission Offices




OIG/99A-08                                                              Page 7 of 7
                                                                      Appendix IV
             Review of Expenses Associated With Improvements to Commission Offices




OIG/99A-08                                                              Page 1 of 1
                                                                                   Appendix V
                         Review of Expenses Associated With Improvements to Commission Offices




MAJOR CONTRIBUTORS TO THIS REPORT


        Anthony C. Lipuma
        Team Leader


        Michael J. Steinberg
        Auditor




        OIG/99A-08                                                                  Page 1 of 1
                                                                                             Appendix VI
                                    Review of Expenses Associated With Improvements to Commission Offices



              GLOSSARY: OFFICE OF THE INSPECTOR GENERAL PRODUCTS

          INVESTIGATIVE
1.   INVESTIGATIVE REPORT - WHITE COVER
     An Investigative Report documents pertinent facts of a case and describes available evidence
     relevant to allegations against individuals, including aspects of an allegation not substantiated.
     Investigative reports do not recommend disciplinary action against individual employees.
     Investigative reports are sensitive documents and contain information subject to the Privacy Act
     restrictions. Reports are given to officials and managers who have a need to know in order to
     properly determine whether administrative action is warranted. The agency is expected to advise
     the OIG within 90 days of receiving the investigative report as to what disciplinary or other action
     has been taken in response to investigative report findings.

2.   EVENT INQUIRY - GREEN COVER
     The Event Inquiry is an investigative product that documents the examination of events or agency
     actions that do not focus specifically on individual misconduct. These reports identify institutional
     weaknesses that led to or allowed a problem to occur. The agency is requested to advise the
     OIG of managerial initiatives taken in response to issues identified in these reports but tracking
     its recommendations is not required.

3.   MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
     MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction of
     problems and to avoid similar issues in the future. Agency tracking of recommendations is not
     required.

          AUDIT

4.   AUDIT REPORT - BLUE COVER
     An Audit Report is the documentation of the review, recommendations, and findings resulting from
     an objective assessment of a program, function, or activity. Audits follow a defined procedure
     that allows for agency review and comment on draft audit reports. The audit results are also
     reported in the OIG's "Semiannual Report" to the Congress. Tracking of audit report
     recommendations and agency response is required.

5.   SPECIAL EVALUATION REPORT - BURGUNDY COVER
     A Special Evaluation Report documents the results of short-term, limited assessments. It
     provides an initial, quick response to a question or issue, and data to determine whether an in-
     depth independent audit should be planned. Agency tracking of recommendations is not
     required.

          REGULATORY

6.   REGULATORY COMMENTARY - BROWN COVER
     Regulatory Commentary is the review of existing and proposed legislation, regulations, and
     policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in
     programs and operations. Commentaries cite the IG Act as authority for the review, state the
     specific law, regulation or policy examined, pertinent background information considered and
     identifies OIG concerns, observations, and objections. Significant observations regarding action
     or inaction by the agency are reported in the OIG Semiannual Report to Congress. Each report

                  OIG/99A-08                                                                   Page 1 of 1
indicates whether a response is required.




           OIG/99A-08                       Page 1 of 1
